                                                                                Close-Out
                                    NATIONAL SCIENCE FOUNCATICN
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




\          OFFICE OF
      INSPECTOR GENERAL




      MEMORANDUM                                                                                 ,

    . Date:           December 23, 1998



      From:
                      I                  Lecial Agent, Investigations Section


      Through:                                                     Investigations Section

      Re:             Case Close-

      Background

      During an audit travel review,                       NSF PI, admitted to receiving
                                                           to both his NSF grant (no. 9402991)
                                                                        Audit referred this




    1 overlapping
                    had been reimbursed for travel in December 1996 b both his NSF grant
                           In an e-mail messa e dated June 9, 1998,

      manager at thexpense reports. Dr

      Investigation
                                                    imbursed the
                                                              thatNSF
                                                                   he award that same day.



      We reviewed all of Dr                 ravel vouchers and account summaries for the past
      three years. We found                     he received duplicate reimbursement for any
      other have^, and all of his travel expenses were suppoied by source documentation.
      Additionally, we reviewed his supply and consultant expenditures on site at t h m
      The majority of grant expenditures were incurred by ~ r . o l l a b o r a t o in'  r
      Iceland, who is gathering data for the NSF project. The supply expenditures we reviewed
      were supported by source documents.
Findings
                                                                        Close-Out --
                                                                                Page 2 of 2
                                                                                     11



This duplicate reimbursement appears to be inadvertent and an isolated incident. Review
of ~ r . . s l ) t r a v e l vouchers and account summaries have revealed no further I
indications of inappropriate activity. No further investigation is warranted at this time.

This case is closed.
